<html>
<title> - THE EMPLOYMENT SITUATION: FEBRUARY 2009</title>
<body><pre>[Senate Hearing 111-541]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-541
 
                THE EMPLOYMENT SITUATION: FEBRUARY 2009 

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 6, 2009

                               __________

          Printed for the use of the Joint Economic Committee


                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Carolyn B. Maloney, New York, Chair  Charles E. Schumer, New York, Vice 
Maurice D. Hinchey, New York             Chairman
Baron P. Hill, Indiana               Edward M. Kennedy, Massachusetts
Loretta Sanchez, California          Jeff Bingaman, New Mexico
Elijah E. Cummings, Maryland         Amy Klobuchar, Minnesota
Vic Snyder, Arkansas                 Robert P. Casey, Jr., Pennsylvania
Kevin Brady, Texas                   Jim Webb, Virginia
Ron Paul, Texas                      Sam Brownback, Kansas, Ranking 
Michael C. Burgess, M.D., Texas          Minority
John Campbell, California            Jim DeMint, South Carolina
                                     James E. Risch, Idaho
                                     Robert F. Bennett, Utah

                     Nan Gibson, Executive Director
               Jeff Schlagenhauf, Minority Staff Director
          Christopher Frenze, House Republican Staff Director



















                            C O N T E N T S

                              ----------                              

                                Members

Hon. Carolyn B. Maloney, Chair, a U.S. Representative from New 
  York...........................................................     1
Hon. Kevin Brady, a U.S. Representative from Texas...............     3
Hon. Elijah E. Cummings, a U.S. Representative from Maryland.....     4

                               Witnesses

Dr. Keith Hall, Commissioner, Bureau of Labor Statistics; 
  Accompanied by: Mr. Philip Rones, Deputy Commissioner, Bureau 
  of Labor Statistics; and Dr. Michael Horrigan, Associate 
  Commissioner for Prices and Living Conditions, Bureau of Labor 
  Statistics.....................................................     5

                       Submissions for the Record

Prepared statement of Representative Carolyn B. Maloney, Chair...    18
Prepared statement of Representative Kevin Brady.................    18
Prepared Statement of Dr. Keith Hall, Commissioner, Bureau of 
  Labor Statistics, together with Press Release No. 09-0224......    19


                       THE EMPLOYMENT SITUATION:
                             FEBRUARY 2009

                              ----------                              


                         FRIDAY, MARCH 6, 2009

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:30 a.m. in Room 
106 of the Dirksen Senate Office Building, The Honorable 
Carolyn B. Maloney (Chair) presiding.
    Representatives present: Maloney, Hinchey, Cummings, 
Snyder, Brady, and Campbell.
    Staff present: Molly Ahearn, Gail Cohen, Eleni Constantine, 
Nan Gibson, Colleen Healy, Aaron Kabaker, Justin Ungson, Andrew 
Wilson, Jeff Wrase, Chris Frenze, Bob Keleher, and Robert 
O'Quinn.
    Chair Maloney. The meeting will come to order.
    Commissioner Hall, we thank you for testifying today, and 
we also thank your colleagues for joining you. Please introduce 
your colleagues.
    Commissioner Hall. I have with me Deputy Commissioner 
Philip Rones on the right and Dr. Michael Horrigan, Associate 
Commissioner for Prices and Living Conditions on my left.
    Chair Maloney. Thank you. I recognize myself for five 
minutes.

OPENING STATEMENT OF THE HONORABLE CAROLYN B. MALONEY, CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Chair Maloney. The gut-wrenching job losses in today's 
report highlight the misery and dislocation that American 
families have been enduring since the start of this recession 
more than a year ago.
    Nearly four and a half million Americans have lost their 
jobs over the past 14 months--more than half of them in the 
last 4 months as losses have topped 600,000 jobs a month, as 
this chart shows. The unemployment rate now stands at 8.1 
percent, the highest level in a quarter of a century.
    I am particularly troubled by groups who are being 
particularly hard hit in this recession: women heads of 
households whose unemployment rate is 10.3 percent; African 
Americans whose unemployment rate is 13.4 percent; and Latinos 
whose unemployment rate is 10.9 percent.
    This recession is on a path to be the worst since the Great 
Depression. The job losses have been widespread throughout the 
economy as employers have cut jobs at an even faster pace over 
the last several months.
    Congress worked closely with President Obama to swiftly 
pass the American Recovery and Reinvestment Act last month in 
order to stem job losses and put people back to work as quickly 
as possible.
    Our recovery package will create or save at least 3.5 
million jobs across a variety of sectors over the next several 
years, which will soften the downturn and foster a solid 
economic recovery that benefits all Americans.
    The payments to states, unemployment benefit increases, and 
middle-class tax relief are set to take effect shortly, and I 
am hopeful that the employment figures will soon reflect this 
in our economy.
    The stimulus will need time to kick in, but the magnitude 
of the job losses we have seen indicate that additional 
measures may be needed.
    Rising unemployment adds urgency for the Senate to act on 
the Helping Families Save Their Homes bill that just passed the 
House of Representatives yesterday.
    More than 2 million homes have gone into foreclosure and 
millions of other homeowners find themselves owing more to the 
bank than their homes are worth.
    Not surprisingly, most of the states with the highest 
foreclosure rates also have unemployment rates much higher than 
the national average: California, Florida, Nevada, Arizona, and 
Ohio.
    Our bill would eliminate an anomaly in the current 
bankruptcy code which prevents a court from lowering the 
principal on a homeowner's primary residence despite the 
court's ability to lower the principal on a second home, a 
third, a fourth, or a fifth. Given trends in the labor market, 
this anomaly is giving greater force to the foreclosure wave.
    When homeowners with negative equity lose their jobs, the 
result is too often foreclosure and financial disaster. 
Homeowners who have lost their jobs are less mobile when they 
owe more than their house is worth. Taking a job in another 
area of the country would entail coming up with money to pay 
off their mortgage, or taking a serious hit to their credit 
rating by going through bankruptcy. And without this change in 
the Bankruptcy Code, negative home equity will be an albatross 
that follows them forever.
    Without modifications to the Bankruptcy Code, lenders do 
not have the incentive to negotiate with borrowers, even though 
lenders may be better off by taking a haircut on the principal 
owed rather than enduring foreclosure costs.
    President Obama and the Democrats have embarked on a bold, 
common-sense plan to turn this economy around by enacting a 
recovery plan, rescuing the financial system, and addressing 
the housing problems that are at the root of the financial 
crisis.
    Today's unemployment numbers underscore the need to 
continue our focus on working to solve these complex and 
intertwined problems.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 18.]
    Chair Maloney. The Chair now recognizes Ranking Member, 
Congressman Brady, for five minutes.

    OPENING STATEMENT OF THE HONORABLE KEVIN BRADY, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Representative Brady. Thank you, Madam Chairman. I would 
like to join you in welcoming Commissioner Hall before the 
Committee this morning.
    The data released this morning reflects the deepening 
recession. Payroll employment in February declined by 651,000 
jobs. The unemployment rate climbed to 8.1 percent. Overall 
labor market conditions continue to deteriorate.
    The economic outlook for this year is quite bleak. Now the 
bursting of the credit bubble has sharply reduced asset values, 
but the high debt levels associated with the boom remain, 
burdening this economy.
    Unfortunately, the Administration's solution to the 
problems posed by this excessive debt burden is to propose an 
avalanche of more deficit spending and higher federal debt.
    The Administration's use of giddily optimistic economic 
assumptions make skyrocketing deficit spending appear less 
threatening relative to the size of the economy, but this is an 
illusion.
    The Administration projects that real GDP will fall only 
1.2 percent in 2009 and rise to 3.2 percent next year, compared 
with a Blue Chip Consensus forecast of a decline of 1.9 percent 
this year, and an increase of only 2.1 next.
    More realistic economic assumptions would push the 
Administration's projected budget for this year to a deficit 
closer to $2 trillion. Furthermore, a recent study released by 
the Brookings Institution estimates that deficits will average 
over $1 trillion in each of the next 10 years based on what the 
authors consider to be favorable assumptions.
    The Administration's projections of lower future deficits 
after 2010 thus appear to be very optimistic, especially given 
the ongoing push for even more spending on entitlements and 
various financial bailouts. As Clinton Treasury official Roger 
Altman wrote this week, a weaker economy than that projected by 
the Administration ``means even bigger deficits than the scary 
ones projected.''
    Ultimately, the likelihood of a timely economic recovery 
will depend largely on government policy regarding the toxic 
assets of banks. Credit is the life blood of the economy and 
without functioning credit markets the economy will continue to 
wither. Unfortunately, the Administration so far has failed to 
produce a transparent and effective financial rescue plan.
    As the Financial Times noted yesterday, since the Treasury 
Secretary made this, quote, ``terribly received speech on loans 
for the bank sector, the S&P has dropped 20 percent. Markets 
may not have expected a `silver bullet,' but did expect the new 
administration to have a clearly stated `plan A.' The 
realization that it did not was a severe blow to confidence.'' 
Close quote.
    The Administration needs to produce a clear and effective 
plan to deal with the toxic asset problem of the banks soon if 
the economy is to have a reasonable prospect of a timely 
recovery.
    Furthermore, it should drop its plans to drastically 
increase the tax burden on the economy, including its cap and 
trade proposal that would be especially devastating for the 
manufacturing workers. More taxes, deficit spending, and debt 
will only further burden an already weak economy.
    Madam Chairman, I yield back.
    [The prepared statement of Representative Kevin Brady 
appears in the Submissions for the Record on page 18.]
    Chair Maloney. Thank you very much, and I now recognize 
Congressman Cummings for five minutes.

 OPENING STATEMENT OF THE HONORABLE ELIJAH E. CUMMINGS, A U.S. 
                  REPRESENTATIVE FROM MARYLAND

    Representative Cummings. Thank you very much, Madam 
Chairlady.
    Let me start out by saying that, to repeat some of the 
words of the President: While we may be in dismal times, this 
is America. And I think that we have to take the attitude that 
we will get through this, and we will.
    The key is, as I told my staff this morning, the key is to 
make sure that Americans come through this difficult time and 
come out whole at the end of it; and that we put our Nation in 
a better position so that this does not happen again, so that 
no other President inherits this kind of mess.
    I do believe that we are capable of doing it, and we will 
do it. And I believe in this President, and I know that as this 
situation changes from day to day, hour by hour, it is indeed a 
very difficult moving target but we will hit the target.
    Last week Chairman of the Federal Reserve Ben Bernanke 
acknowledged that the U.S. is facing a severe contraction. He 
indicated that it will take us years to fully recover from this 
economic downturn, and that the speed of our recovery will 
depend in large part on the success of concerted actions being 
taken right now by the Federal Government.
    Today's Unemployment Report, which shows that in February 
of this year another 651,000 Americans were caught in the grip 
of this tightening contraction, is an urgent reminder of why 
decisive and urgent actions are needed to respond to our 
deepening recession.
    Last week we learned that our economy experienced a 6.2 
percent drop in the Gross Domestic Product during the fourth 
quarter of last year. Parallel to this steep drop in the GDP 
has been a widely reported acceleration in the rate of job 
losses, a trend which continued in February.
    In fact, today's report shows that more than half of the 
job losses we have experienced during this recession have 
occurred since November of last year.
    Those who have lost their jobs face truly hard times. Many 
are suddenly confronting a situation in which they may not be 
able to afford the homes they have worked their entire lives to 
own. And some are surely among the one in five homeowners whose 
homes are now under water according to a study released just 
this week.
    Others are confronting a situation in which they cannot pay 
for needed medical care, a child's education, or even the basic 
necessities of life. Even those who have not lost their jobs 
stare at their futures with almost paralyzing uncertainty 
because they do not know if their jobs will continue to exist 
if the economic decline continues to spread.
    At this time, our immediate priority must be to preserve 
and create jobs; to help those of our neighbors who have been 
hit hardest by this downturn, and to make the kind of public 
investments that will carry a recovering economy forward.
    The accomplishment of these objectives will be supported by 
the implementation of the American Recovery and Reinvestment 
Act which I joined a majority of the Members of the House of 
Representatives in supporting.
    Importantly, given the intertwining elements of the crisis 
we now face, our response must continue to be multi-faceted.
    I am pleased to report that yesterday the House passed the 
Helping Families Save Their Homes Act, which will begin 
implementation of part of President Obama's Homeowner 
Affordability and Stability Plan by helping to make the 
mortgages of millions of current homeowners facing foreclosure 
or bankruptcy more affordable to them, and I urge the Senate to 
adopt this measure as quickly as possible.
    Like President Obama, I know without a shadow of a doubt 
that we will emerge from this crisis stronger than we were 
before and with a restored economy capable of recovering the 
ground we have lost, and creating new wealth for all Americans.
    However, if we have learned anything from our current 
crisis it is that achieving a sustainable and lasting recovery 
will require a new willingness to be honest about the true 
nature and extent of risk, as well as a renewed commitment to 
the idea that, for the good of our National economy, government 
must require, through strict regulatory measures, responsible 
actions.
    I look forward to hearing the testimony, and with that I 
yield back.
    Chair Maloney. Thank you very much. I would now like to 
introduce Commissioner Hall. Dr. Keith Hall is the Commissioner 
of the Bureau of Labor Statistics at the U.S. Department of 
Labor. Before becoming BLS Commissioner, Dr. Hall served as 
Chief Economist for the White House Council of Economic 
Advisers during the Bush Administration. Prior to that, he was 
the Chief Economist for the U.S. Department of Commerce. Dr. 
Hall received his B.A. Degree from the University of Virginia 
and his M.S. and Ph.D. Degrees in Economics from Purdue 
University.
    Thank you so much for coming, and you may proceed for five 
minutes.

  STATEMENT OF DR. KEITH HALL, COMMISSIONER, BUREAU OF LABOR 
     STATISTICS; ACCOMPANIED BY: MR. PHILIP RONES, DEPUTY 
   COMMISSIONER, BUREAU OF LABOR STATISTICS; AND DR. MICHAEL 
    HORRIGAN, ASSOCIATE COMMISSIONER FOR PRICES AND LIVING 
             CONDITIONS, BUREAU OF LABOR STATISTICS

    Commissioner Hall. Madam Chair, Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    The sharp and widespread contraction in the labor market 
continued in February. Nonfarm payroll employment fell by 
651,000, following declines of 681,000 in December and 655,000 
in January.
    Since the recession began in December of 2007, job losses 
have totaled 4.4 million, well more than half of which occurred 
in the past 4 months. In February, the unemployment rate 
climbed from 7.6 to 8.1 percent, the highest rate in over 25 
years.
    Manufacturing employment declined by 168,000 in February 
and has dropped by 1.3 million since the start of the 
recession.
    Construction employment fell by 104,000 in February with 
losses throughout the sector.
    In February, employment continued to decline sharply 
throughout most of the service-providing sector. Professional 
and business services employment dropped by 180,000, including 
78,000 jobs lost at temporary help service agencies.
    Elsewhere in the service-providing sector, health care 
employment continued to grow with an increase of 27,000 in 
February, about in line with its recent trend.
    Average hourly earnings for private-sector production and 
nonsupervisory workers increased by 3 cents, or 0.2 percent, in 
February. Over the past 12 months, average hourly earnings have 
risen by 3.6 percent.
    From January 2008 to January 2009, the seasonally adjusted 
Consumer Price Index for Urban Wage Earners and Clerical 
Workers fell by 0.7 percent.
    Measures from the survey of households also showed 
continued deterioration of the labor market conditions. The 
unemployment rate jumped by half a percentage point in February 
to 8.1 percent, the highest rate since December 1983.
    Jobless rates continued to trend up across the major 
demographic groups in February. The number of unemployed 
swelled by 851,000 to 12.5 million.
    Since the recession began, the rise in unemployment has 
been concentrated among persons who lost jobs, as opposed to 
job leavers or people joining the labor force. From December 
2007 to February 2009, the number of job losers has doubled to 
7.7 million, and their share of total unemployment has risen 
from 50 percent to 62.3 percent.
    The number of unemployed individuals experiencing long 
spells of joblessness has also risen. In February, 2.9 million 
persons had been unemployed for 6 months or longer, up from 1.3 
million at the start of the recession.
    The employment-to-population ratio was 60.3 percent in 
February, down slightly over the month and well below its 62.7 
percent level at the start of the recession.
    Among the employed, the number of persons working part time 
who would prefer to be working full time climbed sharply over 
the month.
    There were 8.6 million such workers in February, an 
increase of 787,000 over the month and nearly 4 million since 
the recession began.
    Among persons who were neither working nor looking for work 
in February, about 2.1 million were classified as marginally 
attached to the labor force, up from about 1.6 million a year 
earlier.
    The number of discouraged workers, a subset of the 
marginally attached who believed no jobs were available for 
them, has nearly doubled over the past 12 months to 731,000.
    In summary, nonfarm payroll employment fell by 651,000 in 
February and the unemployment rate rose to 8.1 percent. Since 
the beginning of the recession in December 2007, job losses 
have totaled 4.4 million.
    My colleagues and I now would be glad to answer your 
questions.
    [The prepared statement of Commissioner Hall appears in the 
Submissions for the Record on page 19.]
    Chair Maloney. Thank you very much.
    These are very gut-wrenching numbers, and I would like to 
ask a question that many of my constituents would like to know: 
Are there any bright spots in this month's Jobs Report? Is 
there any good news in our economy?
    Commissioner Hall. There are very few bright spots, if any, 
in this report. Labor market weakness is deep and broad across 
all industries and all demographic groups.
    Chair Maloney. Have you ever seen anything like this 
before? When was the last time that the economy lost more than 
600,000 jobs each month for this many months in a row?
    Commissioner Hall. The answer to that is: Never. We have 
never had four straight months of job loss in excess of 
600,000.
    Chair Maloney. The unemployment rate spiked this month to 
8.1 percent, a half a percentage point increase. When was the 
last time that the unemployment rate jumped by half a 
percentage point or more?
    Commissioner Hall. That is a good question. We have to look 
that one up. The level is the highest in about 25 years.
    Chair Maloney. Okay. Get back to me on that.
    Commissioner Hall. We will.
    Chair Maloney. Consumer confidence has fallen to a record 
low as GDP fell by 6.2 percent in the last quarter of 2008, and 
the Fed expects growth to remain in negative territory in the 
coming year. So are there any indications that job losses will 
stop accelerating or slow any time soon?
    Commissioner Hall. I would have to say the answer is 
probably no, right now. In fact, this report may show a slight 
acceleration in job loss compared to even previous months. And 
the answer to your earlier question about the jump in the 
unemployment rate, it jumped that high in May of last year also 
during the recession.
    Chair Maloney. At the rate this economy is shedding jobs, 
is there any way to avoid historic job losses?
    Commissioner Hall. I would have to say we are already very 
close to historical levels in job losses. As long as we do not 
get economic growth we are probably not going to get job loss--
job gains, sorry.
    Chair Maloney. This Congress is considering a number of 
initiatives to help homeowners stay in their home. I would like 
to explore with you the correlation between unemployment and 
the loss of home ownership and foreclosure.
    A JEC Study that Congress, found a correlation between 
unemployment and foreclosures at least for subprime borrowers, 
and the most recent data on foreclosure rates that I have seen 
show that Florida, Nevada, Arizona, and California had the 
highest foreclosure rates at the end of 2008.
    Do these States have high unemployment rates? Or have they 
had large jumps in unemployment?
    Commissioner Hall. Yes. I think for the most part it is 
states that have had large, large--high unemployment rates that 
have had the higher foreclosures. I think, I think I agree. I 
have not done detailed work on this. I do not want to oversell 
it, but looking at the data there does seem to clearly be a 
relationship between the unemployment rate and foreclosures.
    Chair Maloney. And have we seen a recession that is 
comparable to this period with respect to foreclosures and 
unemployment? Have we ever seen anything like this before?
    Commissioner Hall. Certainly not with foreclosures at all.
    Chair Maloney. Well my time has expired and I recognize my 
good friend and colleague, Congressman Brady.
    Representative Brady. Thank you, Madam Chairman, very much.
    Commissioner, obviously the numbers are troubling today. I 
want to ask a little about, and I am concerned about, the 
future accuracy of these numbers. It seems to me the Bureau of 
Labor Statistics has a long tradition of professionalism that 
includes an aversion to any hint of political interference. I 
think you would agree with me on that.
    I think that independence has been important to maintain 
the statistical integrity of your data on employment, 
unemployment, earnings, weekly hours, and other important 
details. I think it has been critical that the BLS has no hint 
of actual or appearance of political influence.
    My question is: Who collects the Household Data for you?
    Commissioner Hall. The Household Data is collected by the 
Census Bureau. We have a contract with them. They collect the 
data for us. We design the survey. We tabulate the data.
    Representative Brady. There has been a concerted effort 
recently to move the Census Bureau out of the Commerce 
Department and under the thumb of political appointees in the 
White House.
    We have heard some assurances in the last days by the new 
Commerce Secretary that he hopes to block that. But there is a 
worry that these numbers will be politically manipulated in the 
future.
    I think most American public does not want the Census to be 
politically manipulated. Those of us who are following closely 
the labor data do not want our unemployment numbers to be 
politically manipulated, as well.
    Is it important for your data that the Census Bureau be 
completely free of any political appearance or interference by 
either party?
    Commissioner Hall. Absolutely.
    Representative Brady. Let me ask you this: We have seen the 
Obama budget projections as extremely optimistic. They are 
projecting for their budget purposes only a 1.2 percent 
contraction this year, over a 3 percent expansion next year. 
The Federal Reserve Board Chairman just this week said almost 
the opposite, 2 percent contraction this year and 2 percent 
expansion next year.
    Given the statistics we are looking at today between the 
Obama budget leaders and the Federal Reserve Chairman, based on 
the numbers you are seeing which projection do you think is 
more accurate?
    Commissioner Hall. Well I'll tell you, having some 
experience doing these projections, just let me say that it is 
very difficult to project something like GDP. It is very 
difficult. And the only thing you know when you're projecting 
something like GDP is you know you're going to be wrong, 
because things always change.
    So rather than tell you which one I prefer, I will tell you 
that they have got a very tough job trying to project data in 
the best of times, let alone during a recession.
    Representative Brady. But I mean if you were assuring us of 
a GDP projection, would you stake your reputation on a 1.2 
percent contraction this year?
    Commissioner Hall. To be honest, I have not looked at it 
that carefully and I am now in sort of a position where, 
because we produce data that I want to stay out of the whole 
arena of projecting data.
    Representative Brady. Sure. Well given the unemployment 
rate today and the labor market trends you are seeing, what 
evidence would you bring forward to assure us it is only going 
to be a 1.2 percent contraction, looking at the numbers before 
you?
    Commissioner Hall. Um----
    Representative Brady. Or could you?
    Commissioner Hall [continuing]. I couldn't. I, I, I don't 
think I, I don't think I would try to project looking at just 
the employment numbers.
    Representative Brady. Well I just think both parties are 
hopeful that we can get the Administration to bring back a new 
budget with new numbers. I think we can take the bad news. I 
think we can deal with it. But I think these rosy scenarios are 
really undermining credibility at a time when we all need 
credibility.
    Thank you, sir.
    Chair Maloney. Thank you. And I just would like to respond 
to my good friend and colleague's allegations about the Census 
Bureau and efforts to move it to the White House.
    There are absolutely no efforts to move the Census Bureau 
to the White House. Democrats share your concern that we need 
accurate data in order to make informed decisions.
    We hear that Commissioner Hall, among many other agencies, 
rely on accurate data from the Census Bureau. And towards that 
end, there is a bipartisan bill that Congressman Dent and I 
have put out to create a separate, independent agency for the 
Census so that it is totally separate and not under anyone's 
thumb.
    One of the concerns is that in the Commerce Department 
often their budget is raided. Sometimes there are allegations 
that there has been some political influence there, but 
whatever. So let's end this debate and create a separate and 
independent Census Bureau that is fully funded and capable of 
doing the work, the surveys that help Commissioner Hall and 
others come up with projections of where our country is going 
so that we in a bipartisan way can come up with the best policy 
decisions.
    So I hope my colleagues on the other side of the aisle will 
support me in this effort to create an independent, strong 
Census Bureau separate from all other influences so they can 
come forward with the best scientific data to help our country 
move forward.
    The Chair recognizes----
    Representative Brady. Madam Chairman, may I ask, I agree 
with you on the independence. Would that agency report directly 
to the White House?
    Chair Maloney [continuing]. The agency would report, like 
any other agency does, to the Congress, to the American 
Taxpayers, to the American Public, and to everyone involved in 
Government.
    Representative Brady. But its direct line is under White 
House control? Well I agree with you on the independence----
    Chair Maloney. We want it independent----
    Representative Brady [continuing]. I hope the White House--
--
    Chair Maloney [continuing]. But----
    Representative Brady [continuing]. Is with you, but it is a 
real concern today about the partisanship----
    Chair Maloney [continuing]. I think the way to handle that 
concern is to create a separate, independent well-funded 
Census. We do know that in past years there have been sort of a 
raiding of their budgets, and they don't have the money to do 
their work, and then they cannot produce an accurate Census.
    There was a report that came out yesterday that they are 
not ready to go forward with the Census that is before us in 
2010, and I believe a separate and independent body, an 
organization separate like any other independent agency, would 
be appropriate and serve the interests of the American public.
    I would now like to recognize Congressman Snyder, a new 
member of the Committee from the Great State of California.
    Representative Snyder. Actually I am from the Great State 
of Arkansas----
    Chair Maloney. Oh, my---- [Laughter.]
    The Chair stands corrected.
    Representative Snyder [continuing]. That's right. 
[Laughter.]
    Mr. Commissioner, I wanted to talk about--because I am new 
to this Committee, I am new to your information, your form of 
report--I want to go to Table B-1, which does not have a page 
number here, but there are several pages there.
    I am going to ask you specifically--I have about 15 or 20 
questions I want to ask you, but what I--I have gone through it 
just very quickly and circled the ones that in fact showed an 
increase in seasonally adjusted numbers of people employed, and 
just ask for your comments, if you have any, on why that number 
went up. It may be that it is not statistically significant. It 
may be that you do not have any comment.
    But I notice that logging is up by .4. Why would logging 
have gone up?
    Commissioner Hall. That actually is a sector that has not 
seen a lot of job loss over the past few months. It has been 
hovering around zero, and I would say point four is not 
statistically significant.
    Representative Snyder. I notice oil and gas extraction has 
it up by point four. This is in thousands, correct? So you're 
talking about 400 people----
    Commissioner Hall. Yes.
    Representative Snyder [continuing]. Over a national survey.
    Commissioner Hall. Right. Exactly.
    Representative Snyder. So although it still is wintertime--
you know, wintertime is not exactly the best logging time in a 
lot of parts of the country, but oil and gas extraction, I 
assume that's in parts of the country, including Arkansas, with 
a lot of natural gas drilling going on? Is that your 
impression?
    Commissioner Hall. Yes.
    Representative Snyder. Down at the bottom, again near the 
bottom, Nondurable goods, Petroleum and coal products? I 
assume, is that related to natural gas, or more coal?
    Commissioner Hall. Um, I'm not sure if it is related to 
natural gas, but----
    Representative Snyder. Petroleum and coal?
    Commissioner Hall [continuing]. Yes, energy products.
    Representative Snyder. Then on the next page in the Retail 
Trade, Electronics and Appliance Stores, the numbers are up by 
1800. What segments of the electronics and appliance stores are 
putting on help?
    Commissioner Hall. I don't know. We can follow up a little 
on that, but I will say that 1.8 thousand is not a significant 
change. So it's not significantly different from zero.
    Representative Snyder. Well, I'll skip down then to, do you 
consider the Motion Picture and Sound Recording Industries up 
by 6.5, that's 6500 people? How do we account for that?
    Commissioner Hall. That one jumps around a bit. If you sort 
of look at the month-to-month change, that one actually has 
been jumping around a little bit.
    Representative Snyder. My time is about out, but I wanted 
to ask, going over to Education and Health Services, Health 
Care and Social Assistance and Health Care in general, what is 
happening with those numbers? Have there been a lot of help 
wanted signs on hospitals and nursing homes and home health 
agencies? Are there people that are shifting out of other 
segments of the economy as things are not going so well taking 
these jobs? And what do you think is going on with those 
numbers going up fairly dramatically?
    Commissioner Hall. Yes, I think that is a reasonable 
expectation for part of that. Health care has always been 
countercyclical. In fact, the health care spending oftentimes 
increases a bit in the early parts of a recession.
    Representative Snyder. Thank you. My time is up.
    Chair Maloney. The Chair recognizes Congressman Campbell 
for five minutes.
    Representative Campbell. Thank you. I am from California. 
[Laughter.]
    Welcome to California, Mr. Snyder.
    Chair Maloney. A great State.
    Representative Campbell. Thank you, Madam Chair. Thank you, 
Commissioner Hall.
    You mentioned now that we have had three months in a row of 
job losses in the 600,000s. Based on your looking at history, 
or the trends in these things, is there any silver lining there 
that perhaps the job losses have stopped at least accelerating, 
or is there perhaps any history that would say, gee, you can 
bounce along the bottom here for an extended period of time? Or 
is there any message from that?
    Commissioner Hall. Probably not a good message. It is easy 
to sort of think of these numbers as being relatively stable, 
but remember it is a stable loss. Losing over 600,000 jobs a 
month is very significant.
    Just to put it into perspective, we have only had maybe 10 
months where we have lost 500,000 jobs or more in the history 
of our series since 1940. This is 4 of the 10 all in a row.
    Representative Campbell. Okay. At this rate, do you have 
any feel--I mean, we will get to double digits, meaning 10 
percent or higher, pretty quickly at this kind of rate--again, 
any feel? Does prior history tell you anything about that? Or 
how long would this have to continue to get us there? Or what?
    Commissioner Hall. You mean to get to double digits?
    Representative Campbell. Yes.
    Commissioner Hall. You know, I don't know. It is hard to 
say. I think--for example, I think to get the unemployment rate 
up to something like 10 percent we are talking about losing 
well over 2 million additional jobs, if that were to happen.
    Representative Campbell. Okay. I have heard some people 
talk about that the real unemployment rate is actually higher 
than the statistic you put out, arguing that there are new 
graduates from high school and college that are not yet in the 
workforce but they cannot get a job, so they are not counted; 
or that there are people who have given up on getting a job and 
they are not counted.
    Any validity to those arguments?
    Commissioner Hall. Well we do collect a lot of data. We 
collect a lot of data on people who are not in the labor force, 
for example. And to be in the labor force you have to be either 
employed, or unemployed and currently looking. But we do have 
categories of folks who want a job, can't find a job, and have 
looked in the past year for example.
    They are not typically counted in the unemployment rate. 
But we do have some other measures that include those. That 
would be the marginally attached.
    We also have some measures that include people who are 
part-time but want to be full-time. And we have some measures 
that capture that.
    Representative Campbell. Okay, and finally as my time is 
running out, two questions. One, I thought I heard in your 
statistics that perhaps real wages have actually increased, if 
you take into account the increase in wages and then your cost-
of-living increase. And secondly, do you have any figures on 
what is happening with productivity. Because without--we can't 
ever have sustained growth without productivity.
    Commissioner Hall. Right. You're correct, real wages have 
been growing. The down side of that is of course it has been 
growing primarily because energy prices have dropped so 
significantly. So it is less a function of the labor market; 
more a function of declining energy prices.
    Of course that is good news, because declining energy 
prices is actually itself a bit of a stimulus for the economy.
    And with respect to productivity, actually productivity has 
been surprisingly high for a recession. To be honest, though, 
the measure of productivity is fairly volatile at this point. 
For example, we just saw the GDP revised down significantly.
    I would anticipate that is going to cause us to revise down 
our productivity numbers recently. So there is a real cyclical 
component to productivity, where it will go up initially in a 
recession and then go down.
    So I am not sure right at the moment the near-term 
productivity tells you very much about the long-run growth 
prospects.
    Representative Campbell. Thank you.
    Chair Maloney. Mr. Cummings.
    Representative Cummings. Thank you very much, Madam Chair.
    Given the growing constraints on state and local budgets 
and the record federal deficit, what do you think will happen 
to government employment in the months to come? And what will 
this mean to the overall labor market?
    Commissioner Hall. It is typical in recessions for state 
governments--at least noneducational state government 
employment--to eventually decline in a recession, but typically 
it's at least a year into a recession.
    What we are seeing now, we have actually seen that start to 
decline a bit earlier than most recessions, the state 
employment, state government. So if that is an indication, that 
has started a bit early.
    With respect to local government employment, typically in 
past recessions local government employment has not fallen at 
all; it has continued to grow. And we have had flat local 
government employment, and that has been unusual so far in this 
recession.
    Representative Cummings. As of January 2008, the 
unemployment rate for African Americans and Latinos had jumped 
about 4.1 percentage points since the recession began.
    Is it typical for unemployment rates to increase this much 
during a recession?
    Commissioner Hall. Well this is--it's not typical for the 
unemployment rate to increase this much during recessions. It 
is not unprecedented. It rose this much back in the 1970s for 
example.
    But with respect to African Americans in particular, it is 
typical that they start with a higher unemployment rate and 
they have a larger increase in the unemployment rate during a 
recession than other groups, certainly with whites.
    Representative Cummings. And what do you account for the 
difference?
    Commissioner Hall. I'm not sure I would account for all of 
it. I have not done a lot of work in this, so I am not sure I 
can tell you what the answer is on that.
    Representative Cummings. Tell me about the difference 
between the trends when you compare people with degrees and 
those without degrees, as far as unemployment? I mean, who is 
losing jobs the fastest, at a greater amount?
    Commissioner Hall. Sure. Well again the pattern this 
recession has been typical of past recessions. Those without 
high school degrees start with the higher unemployment rate and 
have had a bigger increase. For example, they have had an 
increase over the past 12 months of about 5.2 percentage 
points.
    Representative Cummings. And that is who, now?
    Commissioner Hall. These are folks without high school 
degrees. And then people with high school degrees but no 
college, they have a slightly lower unemployment rate but again 
it has gone up more.
    Then you get all the way up to people with a college 
degree, and they have the lowest unemployment rate, but that 
rate itself has also gone up.
    Representative Cummings. And so as far as--now going back 
to something you said that was very interesting, you said that 
there had been 10 months where we have had, what was it----
    Commissioner Hall. When we have lost over a half a million 
jobs.
    Representative Cummings [continuing]. And we now have four 
of them.
    Commissioner Hall. Yes.
    Representative Cummings. What does that tell you? I mean, I 
know you don't like to predict, but would you be surprised if 
we have a fifth?
    Commissioner Hall. Let me just say that the trend in the 
labor market up to now, there has been no trend of improvement.
    Representative Cummings. So you're not answering the 
question, or what?
    Commissioner Hall. I don't want to forecast, but I will 
tell you there are no signs of improvement in this report. And 
if anything there is a slight deterioration in the decline in 
the labor market in this report.
    Representative Cummings. Thank you. I see my time is up. 
Thank you, Madam Chairlady.
    Chair Maloney. Congressman Hinchey.
    Representative Hinchey. Thank you very much, Madam 
Chairman, and thank you, gentlemen, very much, for your 
information today and for the work that you do.
    It is quite clear that we are facing one of the most 
difficult economic conditions that this country has ever had to 
deal with, and the circumstances are getting increasingly 
worse.
    It is remarkable that over the course of the last two years 
members of this Committee and others on the Appropriations 
Committee, for example, have tried to get attention focused on 
this problem by a number of people in the previous 
Administration, including the Secretary of the Treasury, who 
continued to deny that there was any upcoming problem in the 
economy, which was increasingly obvious to anyone who was 
looking at this, and it was also obvious based upon the 
information that we have received from your offices over the 
course of the last couple of years.
    So this situation is dire, deep and is getting desperate. 
We need to deal with this in an appropriate way. Look what 
happened with the so-called ``Stimulus Bill,'' the Reinvestment 
Package that was passed by the Congress and signed by the 
President, how politicized that became, how difficult it was to 
get people on the other side of the aisle to vote for it.
    And the circumstances that we are now facing with the 
Omnibus Appropriations bill, which is being blocked in the 
Senate, and all of that is causing this economy to get 
increasingly worse.
    We know what has to be done. We know what has to be 
changed. We know what the causes are: the tax cuts of the Bush 
Administration which concentrated the wealth in the hands of 
fewer and fewer people than we have experienced since 1929. 
And, the reckless spending in which they engaged--particularly 
outside of the country in places like Iraq.
    So the circumstances that we are dealing with all derive 
from that incompetence, and even forms of corruption that we 
have experienced over the course of the last number of years.
    Last month the economy lost 651,000 jobs, increasing the 
unemployment rate to 8.1 percent, which was much higher than 
was forecast in December. The payroll drop in January was 
revised up, as you have said, to 655,000. December now shows a 
681,000 drop, up from the 577,000 which was previously 
estimated.
    That December decline in employment is now the worst we 
have seen since October of 1949. The U.S. economy has now lost 
almost 4.5 million jobs since the recession officially began in 
December of 2007. But what drove it was in existence prior to 
that and was having its impact prior to December of 2007.
    It is the biggest employment slump of any economic downturn 
since the end of the Second World War. Long-term unemployment 
has increased by 270,000 to almost 3 million people across the 
country now. Over the past 12 months, the number of long-term 
unemployed has increased by 1.6 million. More than half of the 
long-term unemployment we are experiencing has occurred over 
the course of just the last 12 months.
    The anticipation is that we are going to lose 2 million 
more jobs that are likely to be lost over the course of this 
year and into next year. And the unemployment rate is likely to 
continue to go up to hit 9 percent or 10 percent.
    All of that is going to happen unless--unless we change the 
economic policies of this Congress, which is now being very 
positively driven by this new Administration.
    So what do you think? What do you think of that? Don't you 
think we should be acting in a strong and positive way to get 
this economy back on line?
    Commissioner Hall. Well I certainly think the economy is in 
trouble, and I think you have accurately identified a lot of 
the problems and how serious this problem is. And the trend so 
far has not been encouraging with the economy.
    Representative Hinchey. It is not encouraging at all. And 
the only way to make it encouraging is for us to stimulate the 
economy, stimulate the economy by the economic development, so-
called ``stimulus bill'' which was signed by the President and 
is now being put into motion, but also by the normal budget 
bills that we have to pass.
    The budget bill for this fiscal year, which is now 
essentially almost half over, refused to be signed by the 
previous President because it was contained as a result of the 
initiatives by this Congress, it contained internal investment, 
internal investment in the needs of our country, to upgrade 
jobs, to increase economic circumstances, to correct all the--
begin to correct at least all the problems that we have been 
facing.
    And that is what we are dealing with now. And we are 
dealing with the problem in the Senate where some people are 
just unwilling to face up to their obligations and 
responsibilities, unwilling to pass the normal budget bill that 
we need right now in this fiscal year.
    What they are trying to do is drive it down so that we do 
not have enough economic development, economic stimulus, which 
is going to combat this downturn in jobs, and which is going to 
drive up employment, increase employment.
    If you look at the unemployment in the manufacturing 
industry, for example, how dark that is, and so many other 
aspects of the economy in this country, the service economy, 
the manufacturing economy, the construction economy, all of 
that is going down.
    We will correct that in the context of this Appropriations 
bill, in the context of this budget bill which is now being 
stalled in the Senate.
    Chair Maloney. Thank you.
    Representative Hinchey. That needs to be done.
    Chair Maloney. That is a forceful statement, and we have 
been called for a vote. I have a series of other questions that 
I would like to present to you in writing, and invite the other 
members of the panel to do the same.
    Chair Maloney. We thank you for your professional work, and 
we thank your colleagues for being here today to talk about the 
unemployment situation. These numbers are sobering, and I look 
forward to the continuing focus on labor market conditions by 
this Committee and working with the Democrats and Republicans 
to advance policies to reverse these conditions and move our 
economy forward.
    I thank you for being here today. The meeting is adjourned.
    [Whereupon, at 10:18 a.m., Friday, March 6, 2009, the 
hearing adjourned.]
                       SUBMISSIONS FOR THE RECORD

 Prepared Statement of Carolyn Maloney, Chair, Joint Economic Committee
    The gut-wrenching job losses in today's report highlight the misery 
and dislocation that American families have been enduring since the 
start of this recession more than a year ago. Nearly 4 and a half 
million Americans have lost their jobs over the past 14 months--more 
than half of them in the last 4 months as losses have topped 600,000 
jobs a month. The unemployment rate now stands at 8.1 percent--the 
highest level in a quarter of a century.
    I am particularly troubled by groups who are being particularly 
hard-hit in this recession--women heads of households, whose 
unemployment rate is 10.3 percent; African Americans, whose 
unemployment rate is 13.4 percent; and Latinos, whose unemployment rate 
is 10.9 percent.
    This recession is on a path to be the worst since the Great 
Depression. The job losses have been widespread throughout the economy 
as employers have cut jobs at an even faster pace over the last several 
months. Congress worked closely with President Obama to swiftly pass 
the American Recovery and Reinvestment Act last month in order to stem 
job losses and put people back to work as quickly as possible.
    Our recovery package will create or save at least 3.5 million jobs 
across a variety of sectors over the next several years, which will 
soften the downturn and foster a solid economic recovery that benefits 
all Americans. The payments to states, unemployment benefit increases, 
and middle-class tax relief are set to take effect shortly, and I am 
hopeful that the employment figures will reflect this soon. The 
stimulus will need time to kick in, but the magnitude of the job losses 
we've seen indicate that additional measures may be needed.
    Rising unemployment adds urgency for the Senate to act on the 
Helping Families Save Their Homes bill that just passed in the House of 
Representatives yesterday. More than 2 million homes have gone into 
foreclosure, and millions of other homeowners find themselves owing 
more to the bank than their homes are worth. Not surprisingly, most of 
the states with the highest foreclosure rates also have unemployment 
rates much higher than the national average--California, Florida, 
Nevada, Arizona, and Ohio.
    Our bill would eliminate an anomaly in the current bankruptcy code, 
which prevents a court from lowering the principal on a homeowner's 
primary residence despite the court's ability to lower the principal on 
a second home. Given trends in the labor market, that anomaly is giving 
greater force to the foreclosure wave.
    When homeowners with negative equity lose their jobs, the result is 
too often foreclosure and financial disaster. These homeowners cannot 
meet their mortgage payments, they cannot sell their homes for enough 
money to cover their mortgage, and they cannot reduce their debt to a 
manageable level through bankruptcy. As a result they lose their homes 
to foreclosure, their credit rating is destroyed, and they have a 
continuing burden of debt.
    In this way rising unemployment is aggravating an already serious 
crisis in the housing market. As more people lose their homes to 
foreclosure, the stock of unsold houses increases, putting more 
downward pressure on house prices. This leads to more homeowners owing 
more than their house is worth, which leads to still more foreclosures.
    Some unemployed workers are simply trapped by falling home prices. 
Homeowners who have lost their jobs are less mobile when they owe more 
than their house is worth--taking a job in another area of the country 
would entail coming up with money to pay off their mortgage or taking a 
serious hit to their credit rating by going through bankruptcy. And 
without this change in the bankruptcy code, negative home equity will 
be an albatross that follows them forever.
    Without modifications to the bankruptcy code, lenders don't have 
the incentive to negotiate with borrowers, even though lenders may be 
better off by taking a haircut on the principal owed rather than 
enduring foreclosure costs.
    President Obama and the Democrats have embarked on a bold, common 
sense plan to turn this economy around by enacting a recovery plan, 
rescuing the financial system and addressing the housing problems that 
are at the root of the financial crisis.
    Today's unemployment numbers underscore the need to continue our 
focus on working to solve these complex and intertwined problems.
                               __________
    Prepared Statement of Representative Kevin Brady, Senior House 
                               Republican
    I would like to join in welcoming Commissioner Hall before the 
Committee this morning.
    The data released this morning reflect a deepening recession. 
Payroll employment in February declined by 651,000. The unemployment 
rate climbed from 7.6 to 8.1 percent. Overall labor market conditions 
continue to deteriorate.
    The economic outlook for the year is quite bleak. The bursting of 
the credit bubble has sharply reduced asset values, but the high debt 
levels associated with the boom remain, burdening the economy. 
Unfortunately, the administration's solution to the problems posed by 
this excessive debt burden is to propose an avalanche of more deficit 
spending and higher federal debt.
    The administration's use of relatively optimistic economic 
assumptions make skyrocketing deficit spending appear less threatening 
relative to the size of the economy, but this is an illusion. The 
administration projects that real GDP will fall 1.2 percent in 2009 and 
rise 3.2 percent in 2010, compared with a Blue Chip Consensus forecast 
of a decline of 1.9 percent in 2009 and an increase of 2.1 percent in 
2010. More realistic economic assumptions would push the 
administration's projected 2009 budget deficit of $1.75 trillion closer 
to $2 trillion. Furthermore, a recent study released by the Brookings 
Institution estimates that deficits will average over $1 trillion in 
each of the next ten years, based on what the authors consider to be 
favorable assumptions.
    The administration's projections of lower future deficits after 
2010 thus appear to be optimistic, especially given the ongoing push 
for even more spending on entitlements and various financial bailouts. 
As Clinton Treasury official Roger Altman wrote this week, a weaker 
economy than that projected by the administration ``means even bigger 
deficits than the scary ones projected.''
    Ultimately, the likelihood of a timely economic recovery will 
depend largely on government policy regarding the toxic assets of 
banks. Credit is the life blood of the economy, and without functioning 
credit markets the economy will continue to wither. Unfortunately, the 
administration so far has failed to produce a transparent and effective 
financial rescue plan.
    As the Financial Times noted yesterday, since the Treasury 
Secretary made ``his terribly received speech on loans for the bank 
sector, the S&P has dropped 20 percent. Markets may not have expected a 
`silver bullet,' but did expect the new administration to have a 
clearly stated `plan A.' The realization that it did not was a severe 
blow to confidence.''
    The administration needs to produce a clear and effective plan to 
deal with the toxic asset problem of the banks soon, if the economy is 
to have a reasonable prospect of a timely recovery. Furthermore, it 
should drop its plans to drastically increase the tax burden on the 
economy, including its cap and trade proposal that would be especially 
devastating for manufacturing workers. More taxes, deficit spending, 
and debt will only further burden an already weak economy.
                               __________
    Prepared Statement of Keith Hall, Commissioner, Bureau of Labor 
                               Statistics
    Madam Chair and Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    The sharp and widespread contraction in the labor market continued 
in February. Nonfarm payroll employment fell by 651,000, following 
declines of 681,000 in December and 655,000 in January. Since the 
recession began in December 2007, job losses have totaled 4.4 million, 
well more than half of which occurred in the past 4 months. In 
February, the unemployment rate climbed from 7.6 to 8.1 percent, the 
highest rate in over 25 years.
    Manufacturing employment declined by 168,000 in February and has 
dropped by 1.3 million since the start of the recession. Employment has 
fallen in nearly all manufacturing industries during this period. In 
February, manufacturing hours decreased by two-tenths of an hour, as 
did factory overtime hours.
    Construction employment fell by 104,000 in February with losses 
throughout the sector. This industry has shed 904,000 jobs since the 
recession began, with about half of the decline occurring in the past 4 
months.
    In February, employment continued to decline sharply throughout 
most of the service-providing sector. Professional and business 
services employment dropped by 180,000, including 78,000 jobs lost at 
temporary help agencies. Employment in temporary help has fallen by 
686,000 since the recession began. Other large over-the-month job 
losses occurred in transportation and warehousing (-49,000), especially 
trucking; financial activities (-44,000); retail trade (-40,000); and 
wholesale trade (-37,000).
    Elsewhere in the service-providing sector, health care employment 
continued to grow with an increase of 27,000 in February, about in line 
with its recent trend.
    Average hourly earnings for private-sector production and 
nonsupervisory workers increased by 3 cents, or 0.2 percent, in 
February. Over the past 12 months, average hourly earnings have risen 
by 3.6 percent. From January 2008 to January 2009, the seasonally 
adjusted Consumer Price Index for Urban Wage Earners and Clerical 
Workers (CPI-W) fell by 0.7 percent.
    Measures from the survey of households also showed continued 
deterioration of labor market conditions. The unemployment rate jumped 
by half a percentage point in February to 8.1 percent, the highest rate 
since December 1983. Jobless rates continued to trend up across the 
major demographic groups in February. The number of unemployed swelled 
by 851,000 to 12.5 million.
    Since the recession began, the rise in unemployment has been 
concentrated among persons who lost jobs, as opposed to job leavers or 
people joining the labor force. From December 2007 to February 2009, 
the number of job losers has doubled to 7.7 million, and their share of 
total unemployment has risen from 50.0 to 62.3 percent.
    The number of unemployed individuals experiencing long spells of 
joblessness also has risen. In February, 2.9 million persons had been 
unemployed for 27 weeks or longer, up from 1.3 million at the start of 
the recession.
    The employment-population ratio was 60.3 percent in February, down 
slightly over the month and well below its 62.7 percent level at the 
start of the recession. Among the employed, the number of persons 
working part time who would prefer to be working full time climbed 
sharply over the month. There were 8.6 million such workers in 
February, an increase of 787,000 over the month and nearly 4 million 
since the recession began.
    Among persons who were neither working nor looking for work in 
February, about 2.1 million were classified as marginally attached to 
the labor force, up from about 1.6 million a year earlier. These 
individuals wanted a job, were available for work, and had looked for a 
job within the last 12 months. The number of discouraged workers, a 
subset of the marginally attached who believed no jobs were available 
for them, has nearly doubled over the past 12 months to 731,000.
    In summary, nonfarm payroll employment fell by 651,000 in February, 
and the unemployment rate rose to 8.1 percent. Since the beginning of 
the recession in December 2007, job losses have totaled 4.4 million.
    My colleagues and I now would be glad to answer your questions.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
